                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                    I


                                                      OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

 Case Number: I04 120048                                                                       Page 1 of 1



          Two NSF awards' were reviewed as part of a Proactive Review of Participant Support funds.
          Participant support funds are restricted to specific uses and cannot be reallocated without prior
          written approval from NSF.

          Following discussions with NSF and the institution2 on May 27,2005, the institution sent a
          check for $73,509.00. The check represented a final settlement for these two NSF awards. The
          institution also submitted a copy of the institution's new policy regarding the use of participant
          support funds.

          Accordingly, this case is closed.




NSF OIG Fonn 2 ( I 1/02)
